             OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR



Memorandum

To:           Rhea Suh
              Assistant Secretary for Policy, Management and Budget

Attention:    Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up, Office of Financial
              Management

From:
                                               Region

Subject:      Verification of Recommendations for the Report, "Department of the Interior
              Roads Programs: The Dangers of Decentralization" (Report No. C-EV-MOA-
              0003-2009)
              Report No. ER-VS-MOA-0013-2013

       The Office of Inspector General (OIG) has completed a verification review of the
recommendation presented in the subject report. Our objective was to determine whether DOl
implemented our recommendation as reported to the Office of Financial Management (PFM),
Office of Policy, Management and Budget. PFM reported to OIG that it has closed the
recommendation. We concur that the recommendation has been resolved and implemented.

Background

        Our February 2010 report (Attachment 1), "Department ofthe Interior Roads Programs:
The Dangers of Decentralization," made a recommendation pertaining to the absence of a
centralized point of contact for the various DOl roads programs, particularly those funded
through the U.S. Department of Transportation (DOT), Federal Lands Highways office (FLH).

        In an April2, 2010 memorandum to OIG (Attachment 2), DOl concurred with the
report's recommendation and outlined steps to implement the recommendation. On May 19,
2010, we referred the recommendation to PFM for tracking and implementation. On May 17,
2012, PFM reported that the necessary steps had been taken to consider the recommendation
implemented and closed.

Scope and Methodology

        We limited the scope of this review to determining whether DOl implemented the
recommendation. We reviewed the audit file, interviewed DOl personnel about actions taken on
the recommendation, and considered supporting documentation provided by interviewees.



                        Office of Audits, Inspections, and Evaluations   I Herndon, VA
       We did not perform site visits or conduct fieldwork to determine whether DOI corrected
the underlying deficiencies that were initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards or the
Quality Standards for Inspection and Evaluation as put forth by the Council of the Inspectors
General on Integrity and Efficiency.

Results of Review

        We concluded that DOI implemented the recommendation as indicated by PFM’s closure
notification.

       Recommendation: We recommend that Interior establish a DOI-level office or group
       able to provide centralized, consistent, systematic oversight of the different FLH-
       supported roads programs and to serve as a focal point for interaction with DOT.

       Action Taken: The Office of Acquisition and Property Management (PAM) requested
and obtained approval for a GS-15 level general engineer position responsible for managing the
DOI roads programs. Duties for the position include serving as a “primary contact and
coordinator for asset management planning within the Department and externally with . . . the
Department of Transportation.” This position was filled in February 2013.

         The Department also created the Transportation Coordination Partnership (TCP),
consisting of the heads of transportation programs for all bureaus with land and road
management responsibilities. The TCP meets monthly to discuss and coordinate various
Departmental and Bureau transportation-related practices and policies. TCP works externally
with FLH to standardize these practices across the Federal Government and to support legislative
efforts that affect transportation funding available to DOI. We consider the recommendation
resolved and implemented.

Conclusion

      We informed departmental officials of the results of this review at an exit conference on
September 12, 2013. Officials agreed with the results.


cc:    Anne Castle, Assistant Secretary, Water and Science
       Rachel Jacobson, Acting Assistant Secretary, Fish and Wildlife and Parks
       Kevin Washburn, Assistant Secretary, Indian Affairs
       Tommy Beaudreau, Acting Assistant Secretary, Land and Minerals Management
       Kerry Rae, Audit Liaison Officer, Assistant Secretary, Water and Science
       Katherine Garrity, Audit Liaison Officer, Acting Assistant Secretary, Fish and Wildlife
        and Parks
       Michael Oliva, Audit Liaison Officer, Assistant Secretary, Indian Affairs
       Pam Royal, Audit Liaison Officer, Assistant Secretary, Land and Minerals Management
       Nancy Thomas, Audit Liaison Officer, Office of Financial Management
       Sharon Blake, Audit Liaison Officer, Office of Financial Management



                                               2
Alexandra Lampros, Audit Liaison Officer, Office of Financial Management
Patrick McHugh, Audit Liaison Officer, Office of Financial Management
Jonathan House, Audit Liaison Officer, Office of Financial Management
Robert Miller, Professional Engineer, Office of Acquisition and Property Management
Craig Lasser, Professional Engineer, Office of Acquisition and Property Management




                                      3
                  Office of Inspector General
                  U.S. Department of the Interior

                  Evaluation Report




   Department of the Interior Roads Programs
          The Dangers of Decentralization



Report No. C-EV-MOA-0003-2009           February 2010
                                                                                      Attachment 1




                                                                                  FEB 0 1 2010


Memorandum

To :           Assistant   Secretary, Fish and Wildlife and Parks
               Assistant   Secretary, Indian Affairs
               Assistant   Secretary, Land and Minerals Management
               Assistant   Secretary, Water and Science

                                    } 1~2L ( ·~-~ c{
                                                                   1

From:          Mary L. Kendall '                            [.L,       (

               Acting Inspector Generii

Subject:       Department of the Interior' s Roads Programs - The Dangers of Decentralization
               (C-EV -MOA-0003-2009)

        This memorandum transmits our evaluation report on the Department of the Interior' s
(DOl or Interior) roads programs. We performed this evaluation to determine if Interior"s
bureaus have identified and prioritized their roads needs, developed project implementation
plans, and installed systems to account for funds expended toward roads projects.

        We found significant inaccuracies in roads inventories that affect the ability of bureaus to
identify needs correctly and inefficiencies in the processes that bureaus use to prioritize their
needs. All bureaus have project implementation plans and the ability to track spending. Two of
the bureaus, however, Bureau of Indian Affairs (BIA) and Bureau of Land Management (BLM),
lack sufficient safeguards to adequately detect misuse and mismanagement of funds.

      To improve management, increase consistency, and better communicate with the
Department of Transportation (DOT), which jointly manages the majority of Interior roads, we
recommend establishing one DOl-level office or group to oversee all DOl roads programs.

        Please have a written response forwarded to this office within 30 days that identifies
plans to address our findings and recommendation so that we may track the status of
implementation . Should you have any questions, please do not hesitate to contact me at
(202) 208- 5745.
                                                                                       Attachment 1




EXECUTIVE SUMMARY
Why We Performed This Evaluation

We evaluated the Department of the Interior’s roads programs at the request of the Congress. We
limited our focus specifically on answering the following four questions:

       Have the bureaus identified their roads needs?

       Do the bureaus have mechanisms in place for prioritizing their needs?

       Have the bureaus developed implementation plans for roads projects?

       Do the bureaus have systems in place to account for funds expended toward roads
        projects?

Our evaluation included roads programs at the Bureau of Indian Affairs (BIA), National Park
Service (NPS), U.S. Fish and Wildlife Service (FWS), and the Bureau of Land Management
(BLM). The Bureau of Reclamation (BOR) also manages roads; however, we excluded BOR
from our evaluation due to its small roads inventory. (See Appendix A for a complete list of
abbreviations and acronyms used throughout the report and Appendix B for our scope and
methodology).

What We Found

We identified problems in the areas of:

    Inventory: Significant inaccuracies exist in roads inventories that affect the identification of
    needs, skew funding levels, and may lead to either an overestimation or underestimation of
    public road miles.

    Prioritization and Implementation: Inadequacies exist in prioritizing needs, as well as in
    implementing transportation plans. Not all bureaus have processes in place.

    Accountability: All the bureaus reviewed have the ability to track spending. The way BIA
    and BLM track spending, however, brings into question their ability to adequately detect the
    misuse and mismanagement of funds.

Interior has not provided Department-level oversight to adequately manage its roads programs.
Rather, each bureau is responsible for framing its own roads programs. We believe that this
decentralization has led to the problems we have identified.




                                                  2 
 
                                                                                                           Attachment 1



BACKGROUND ON ROADS PROGRAMS
Roads Universe
 
Five Interior bureaus manage approximately 186,7131 miles of roads that are designated for
either public or administrative use (see below). The roads inventory includes unpaved roads
(primarily dirt and gravel) and paved roads. More than 50 percent of the total miles have been
identified as being in poor condition.

                                                     Miles of 
                                                   Roads, BOR, 
                                                   1,863, (1%)
                                                                  Miles of 
                                                                Roads, BLM,                  Miles of 
                                                                  76,000,                   Roads, BIA, 
                                                                   (41%)                     94,400, 
                                                                                              (50%)




                                                  Miles of                               Miles of 
                                                Roads, FWS,                            Roads, NPS, 
                                                4,900, (3%)                            9,550, (5%)

                                                                  DOI’s Universe of Roads


The deferred maintenance costs2 associated with DOI roads are estimated to be:

                       $181 million for BIA,

                       $4.9 billion for NPS,

                       $1.5 billion for FWS, and

                       $226 - $276 million for BLM. 

Roads Programs
The Departments of the Interior and Transportation jointly manage three programs through the
use of memorandums of agreement. The responsible office within Transportation is Federal
Lands Highway (FLH), which provides program stewardship and transportation engineering
                                                             
1 All numbers used in this evaluation are based on information provided by the bureaus, or FLH. 
2 Current as of January 2010. 




                                                                               3 
 
                                                                                       Attachment 1


services for the planning, design, construction, and rehabilitation of highways, roads, parkways,
bridges, and transit facilities that provide access to or within federally owned lands, national
parks, and Indian reservations. We briefly describe the jointly managed programs below.

The Indian Reservation Roads (IRR) Program provides funds for roads to, within, and
through Indian reservations, whether owned by BIA or other State or local agencies. The IRR
system consists of nearly 33,000 miles of public roads and 940 bridges owned by BIA and Tribal
governments and over 61,000 miles of public roads owned by State and local governments and
other entities. By way of comparison, the entire Interstate Highway System has a total length of
46,876 miles, less than half the mileage of the IRR system (94,400 miles of roads).
Approximately 73,320 miles or 78 percent of IRR roads are unpaved. 

The Park Roads and Parkways (PRP) Program provides funds for public roads that make
access available to or within national parks, recreation areas, historic areas, or other NPS units.
The inventory includes 9,550 miles of roads, as well as 1,414 bridges and 63 tunnels.
Approximately 4,100 miles or 43 percent of the roads are unpaved.

The Refuge Roads Program provides funds for approximately 4,900 miles of public roads that
grant access to or within units of the National Wildlife Refuge (NWR) System, as well as 265
bridges and 5,153 parking lots. The NWR System includes approximately 548 wildlife refuges in
all 50 states, Puerto Rico, Guam, and the U.S. Virgin Islands. FLH funding is provided primarily
for the design, reconstruction, maintenance, or improvement of Refuge Roads. Approximately
4,508 miles or 92 percent of the roads are unpaved.

Funding of Roads Programs

Funding for DOI roads programs comes from two primary sources.3 The first source is the Safe,
Accountable, Flexible, and Efficient
Transportation Equity Act: A Legacy for
Users (SAFETEA-LU). SAFETEA-LU                             Title 23 U.S.C.
provides guaranteed funding for                Safe, Accountable, Flexible, Efficient
highways, highway safety, and public         Transportation Equity Act: A Legacy for
transportation over a 5-year period (FY                         Users
2005 – FY 2009) that totals $244.1
billion. This amount includes $4.5 billion  Signed into law by President George W. Bush
for transportation projects on or accessing on August 10, 2005, SAFETEA-LU governs
federal lands. For the bureaus with
                                            U.S. federal surface transportation spending.
SAFETEA-LU authorizations (BIA, NPS,
and FWS), FLH serves primarily as a         The legislation expired September 30, 2009.  
pass-through vehicle.

SAFETEA-LU funds can be used for transportation planning, research, engineering, and
construction of highways, roads, parkways, and transit facilities within public lands, national
                                                             
3 Specifics on the funding for FY 2008 and FY 2009 are provided in Appendix C. 




                                                                4 
 
                                                                                        Attachment 1


parks, and Indian reservations; FLH projects are 100 percent federally funded. In addition,
SAFETEA-LU funds can be used as the State/local match for most types of federal-aid highway
funded projects.


                            SAFETEA-LU Funding Levels
                       DOI Program                         FY2009 Funding Levels

                Indian Reservation Roads                         $450 million

                Park Roads and Parkways                          $240 million

                       Refuge Roads                               $29 million


SAFETEA-LU does not fund routine maintenance of public roads. The Act, however, does
permit up to 25 percent of the IRR Program funds to be used for the maintenance of the IRR
System. The actual percentage of IRR funds for maintenance is determined by individual tribes.

The second source is DOI funding for construction and maintenance projects, which comes
through as line items in bureau budgets. To obtain these funds, road projects must compete with
other construction and maintenance projects within the respective bureaus.


W HAT W E L EARNED
Inaccuracies Skew Inventories
Maintaining an accurate inventory of roads and their condition is the first step in the successful
management of a transportation network. NPS and FWS have well established, regularly
updated, accurate road inventory and condition databases in place to help identify their needs.
We found that BIA and BLM, the two largest road programs with respect to mileage, did not
have adequate inventories.

We were told by bureau officials that, while BIA and BLM both maintain road inventories, their
databases may not match their actual roads. In the case of BIA, we were provided information,
both written and verbal, that shows a 60 percent increase in total IRR inventory miles from FY
2005 (62,000 miles) to FY 2007 (102,000 miles), a 40,000 mile unexplained increase.

BIA’s mileage inventory may be inaccurate because:

       road mileage was underreported in previous years;

       tribes self-report road miles on their reservations with little to no on-site, independent
        verification performed; and,

                                                  5 
 
                                                                                      Attachment 1


       IRR funds are allocated using a formula that creates a situation in which tribes actually
        have an incentive to overstate assets to secure more funding.
These conditions may increase the likelihood of potential fraudulent activities within BIA.

Our observations also suggest that BLM underestimates its inventory. BLM program officials
and staff personnel at State offices told us during interviews that BLM’s inventory is incomplete
because some of the least used and poorest conditioned roads have been omitted (i.e.,
undocumented roads). BLM considers most of its 76,000 miles of documented roads to be for
administrative and not public use. According to BLM documents, however, the public now uses
many undocumented roads for multiple everyday life activities — particularly off-highway
vehicle recreational use. Changing demographics, increased access, and shifting travel patterns
have contributed to the public use of roads not designed or constructed for multipurpose or
multivehicle use. These roads have proven to be difficult to identify and manage. Furthermore,
unrestricted usage and access are causing BLM roads to deteriorate at higher than expected rates.
This deterioration makes maintenance, which has often been deferred, essential to ensuring
public safety. BLM’s current emphasis is on maintaining roads in its documented inventory.
Consequently, other roads within the BLM network may go unattended. In some of the worst
cases, BLM has decided to forego any attempts to maintain roads and to allow them to return to
their original states. Potential liability issues could arise from this decision.

Without additional independent assessments to verify and validate the BIA and BLM
inventories, we could not be assured that public funds are being spent in accordance with laws,
regulations, and policies.

Problems Plague Project Prioritization and Implementation
Once needs have been identified, bureaus must prioritize or rank by importance the projects they
wish to complete and then develop plans to implement the projects. Not only do prioritization
procedures differ among the bureaus,
implementation of projects varies greatly.
                                                         Road Maintenance Definitions
Both NPS and FWS have clearly defined
priorities and processes in place to identify          3R refers to Repair, Resurfacing, and
their needs. They routinely place a high           Rehabilitation  of existing roads and directly
emphasis on maintaining roads that are               addresses deferred maintenance concerns.
already in good condition by focusing their           4R refers to Reconstruction projects and
road maintenance spending on what are called         includes realignment of existing roads or
“3R” maintenance activities — repair,               upgrade replacement roads, e.g. replacing a
resurfacing, and rehabilitation. They spend         gravel road with a paved road. 4R projects
less on the “4R” reconstruction projects,                require an environmental review.
which tend to be substantially more
expensive. They believe that performing 3R
maintenance on roads already in fair or good condition extends the service life of those surfaces
and saves money in the end.


                                                 6 
 
                                                                                              Attachment 1


While we are not in a position from an engineering perspective to judge the merits of this method
of prioritization, it is apparent that roads in poor condition could go unmaintained. Such lack of
maintenance drives up the deferred maintenance backlogs and causes the most expensive, time-
consuming work to be delayed — an issue well noted in previous report findings.4

The prioritization processes for BIA and BLM are less well defined then those observed with
NPS and FWS. BIA’s prioritization process appears to be more decentralized and driven by
tribal input. BIA requires tribes to submit 5-year Transportation Improvement Plans (TIPs)5 to
FLH for approval but allows the tribes to alter their plans as often as they wish. In at least one
instance, a high turnover rate in tribal leadership combined with shifting priorities and
unrestricted plan alterations defeated the purpose of long-term planning and prioritization. BLM
also requires State offices to submit 5-year TIPs, although we discovered that not all States meet
this requirement, which makes long-term planning equally difficult.

We found that both NPS and FWS have clearly articulated implementation plans and processes.
FWS produced a series of project checklists and individual project agreements with FLH. As part
of its implementation process, FWS has a Stewardship and Oversight Agreement with FLH that
covers planning, programming, construction, reconstruction, and improvements related to public
use roads and bridges. The quality assurance/quality control component within the plan has yet
to be implemented fully, however, which brings into question FWS’s ability to ensure
appropriate oversight. We found no significant issues with NPS.

BIA and BLM identified their 5-year TIPs as their implementation plans. Neither bureau
provided plans as extensively detailed as those observed with NPS and FWS.

Accountability Is Lax
While NPS and FWS manage roads funds quite well, neither BIA nor BLM have exercised
sufficient oversight to ensure that roads funds are being properly managed and used for intended
purposes.

Specifically, BIA lacks control of its accounting practices and cannot ensure appropriate funds
use. The OIG exposed this failure previously in its flash report6 on the BIA Alaska Region’s
abuse of IRR funding. For example, use of the formula that determines allocation of the majority
of IRR funds allows tribes to misrepresent road mileage and conditions under their domains. The
two largest factors in the formula are vehicle miles traveled (VMT) and cost to construct (CTC).
VMT is the sum of the length of IRR route segments in a tribe’s inventory multiplied by the
average daily traffic of each route segment. CTC is the total cost required to bring the
transportation facility up to industry standards. These two factors make up 80 percent of the
                                                             
4 GAO–09‐425T. Department of the Interior Major Management Challenges reported testimony by Robin M. 

Nazzaro, Director, Natural Resources and Environment, that pertained to a discussion on reducing Interior’s 
deferred maintenance backlog. 
5 The TIPs identify road projects for resurfacing, restoration, and rehabilitation. 
6 DOI OIG Flash Report: BIA Alaska Regional Indian Reservation Roads Program Rife with Mismanagement 

and Lacking Program Oversight.  WR‐IV‐BIA‐0001‐2009, February 2009. 


                                                                7 
 
                                                                                            Attachment 1


formula; both are dependent on self-reported data. BIA has no controls to confirm that self-
reported data are accurate.

After the allocations are calculated, funding is provided to the tribes in a lump sum. Legally, this
funding can only be used on projects that have been identified in an FLH-approved TIP. Neither
FLH nor BIA, however, appears to have the resources needed to adequately monitor and verify
how money is being spent. Combined with inadequate inventory oversight, no accurate method
is in place for either agency to ensure that funds are spent appropriately.

Our interviews with BLM Washington Office officials revealed that, in some instances, field
offices are not using roads funding for its designated purposes and that BLM State offices do
little or no follow-up. BLM’s ability to follow-up has been hampered by a recent switch to new
accounting software, the Financial and Business Management System (FBMS). FBMS does not
assign unique annual road maintenance project codes. As reported by BLM and confirmed
during our evaluation, funds cannot be readily tracked on a per-project basis.

To its credit, BLM is currently taking steps to correct this problem through the development of
an interface between the Facility Asset Management System and FBMS. By doing so, BLM
officials believe they will have greater control over project funds. BLM, however, provided no
timeline for completion of this initiative.

Without a formal process to track funds and check for improper use, the risk of wasteful or
fraudulent use of public money is and will remain unacceptably high. Greater management
oversight and incentives are needed to compel tribes (under BIA) and field offices (under BLM)
to properly account for roads funding.


WHAT IS WORKING
Out of all the bureaus evaluated, NPS was the only bureau that used an automated road analyzer
system for inventory and condition assessments as part of its Road Inventory Program (RIP)7.
This system provides an accurate and objective report on pavement condition, which allows
officials to efficiently prioritize and allocate funding. It is likely that other bureaus found using a
pavement analyzer to be cost prohibitive due to their low percentage of paved roads. As a way of
standardizing pavement assessments for cost-efficiency, sharing automated road analysis systems
across bureaus could be a universally beneficial solution.

NPS also has the most promising process in place for project implementation and accounting of
funds. Although most bureaus had 5-year plans and some had project delivery guidance, none
had plans as extensive as those in place at NPS. NPS and FLH jointly published the “Park Roads
and Parkways Program Handbook, Guidelines for Program Implementation,” a 63-page
document that outlines and explains every aspect of the Program. The Handbook includes
Program goals, performance measures, funding sources, joint and individual responsibilities of
                                                             
7 The Federal Highway Administration RIP for NPS collects roadway condition data on paved asphalt surfaces, 

including roads, parkways, and parking areas in national parks nationwide.   


                                                                8 
 
                                                                                    Attachment 1


the two agencies, transportation planning, Program development, funds management, and project
delivery.

We also found the NPS project tracking system to be the most robust system of its type within
the bureaus evaluated. The PRP Transportation Allocation and Tracking System (PTATS) allow
both NPS and FLH to request, approve, allocate, and track funding for each individual project
undertaken. It also interfaces with NPS’s Administrative Financial System and tracks funding for
the individual stages of project planning, development, construction engineering, administration,
and actual construction. In fact, FWS, itself, has seen this tracking system as a promising
practice and is currently developing software to match NPS capability.


C ONCLUSIONS
Overall, we found that Interior exercises no centralized oversight of roads program activities
within the bureaus. The resultant decentralization has led to a number of inconsistencies and
adversely affected program transparency and efficiency, funds accountability, and most
importantly public safety. With such large percentages of roads in poor condition, the number of
accidents seems certain to increase, along with resultant physical harm. In turn, Interior has
placed itself in jeopardy of litigation. Decisions made to refrain from or avoid performing roads
maintenance risk charges of negligence.

From our conversations with DOT, we know that at least one department, the Department of
Defense, has a centralized entity related to roads programs. FLH and the Military Surface
Deployment and Distribution Command (SDDC) jointly administer the Defense Access Roads
Program. SDDC oversees the selection and prioritization of funding for all road-related activities
recommended by the individual DOD Services.


RECOMMENDATION

Based on our findings, we strongly recommend that Interior:

       Establish a DOI-level office or group able to provide centralized, consistent, systematic
       oversight of the different FLH-supported roads programs and to serve as a focal point for
       interaction with DOT.




                                                9 
 
                                                                            Attachment 1
                                                                                  Appendix A 


                  A BBREVIATIONS , A CRONYMS , AND
                     O THER R EFERENCE T ERMS
BIA                Bureau of Indian Affairs

BLM                Bureau of Land Management

BOR                Bureau of Reclamation

CTC                Cost to Construct

Interior or DOI    Department of the Interior

Transportation
or DOT             Department of Transportation

FBMS               Financial and Business Management System

FLH                Federal Lands Highway

FWS                U.S. Fish and Wildlife Service

IRR                Indian Reservation Roads

NPS                National Park Service

NWR                National Wildlife Refuge

PRP                Park Roads and Parkways

PTATS              Park Roads and Parkways Transportation Allocation and Tracking
System

RIP                Road Inventory Program

SAFETEA-LU         Safe, Accountable, Flexible, Efficient Transportation Equity Act: A
                   Legacy for Users

TIP                Transportation Improvement Plan

VMT                Vehicle Miles Traveled

                           




 
                                                                                Attachment 1
                                                                                      Appendix B 


                         S COPE AND M ETHODOLOGY
We performed this evaluation in accordance with the President’s Council on Integrity and
Efficiency and the Executive Council on Integrity and Efficiency “Quality Standards for
Inspections.” The evaluation focused on the identification and prioritization of the needs of
Interior’s roads programs, as well as the implementation of roads projects and accounting of
roads funds.

Specifically, we reviewed program documents and selected reports (Appendix D); conducted
interviews with key personnel from each of the bureaus; and performed site visits to a limited
number of locations to ascertain the scale of the various roads programs. We also conducted
limited interviews with FLH personnel.

We believe that the work performed provides a reasonable basis for our conclusions and
recommendations. As part of our evaluation, we:

       obtained a general understanding of roads programs managed by BIA, NPS, FWS,
        and BLM;

       conducted site visits and interviewed officials from the various Interior bureaus; 

       interviewed DOT officials from FLH;

       reviewed documentation and reports internal to the respective bureaus and the sites
        we visited;

       performed other work that we considered necessary; and

       reviewed laws and regulations that prescribe the requirements of roads programs on
        federal lands. This included Title 23 U.S.C.; SAFETEA-LU; the Government
        Performance and Results Act; and the Tribal Self Governance Act of 1994.  
             




                                                
 
                                                                                                         Attachment 1
                                                                                                             Appendix C 



                 F UNDING L EVELS AND S OURCES FOR DOI R OADS                                                   
                                                                               FUNDING SOURCE
                                                                              (in Millions of Dollars)
                                                                       FY 2008                       FY 2009

    BUREAU                  PROGRAM/ACTIVITY                    SAFETEA-LU            DOI     SAFETEA-LU           DOl

                             IRR (including bridges)                 $410               -          $450              -
      BIA
                                       Maintenance8                  $102.5          $25.6        $112.5           $26.0

                         Park Roads and Parkways                     $225               -          $240              -
      NPS                              Construction9                   -              $122           -             $149

                                       Maintenance10                   -              $336           -             $373

                                      Refuge Roads                    $29               -           $29              -
      FWS
                                       Maintenance10                   -             $67.8           -             $67.8

                                       Construction9                   -              $6.4           -             $6.6
     BLM
                                       Maintenance10                   -             $68.4           -             $67.9
 

                                                            




                                                             
8 Up to 25 percent of a tribe’s IRR Program funds may now be used for the purpose of IRR system 

maintenance, as defined in 25 CFR § 170. BIA retains primary responsibility for IRR maintenance through 
DOI appropriations. 
9 Funding for all bureau construction related projects — not limited to road projects. 
10 Funding for all bureau maintenance related projects — not limited to road projects.  




                                                                  
 
                                                                             Attachment 1
                                                                                   Appendix D 


                                                                                           
                     S ELECTED R EPORTS R EVIEWED
 

   GAO-09-425T: Department of the Interior, Major Management Challenges

   GAO-09-435T: Transportation Programs, Challenges Facing the Department of
    Transportation and Congress

   GAO-09-316: Highway Trust Fund: Improved Solvency Mechanisms and
    Communication Needed to Help Avoid Shortfalls in the Highway Account

   U.S. Department of the Interior, Office of Inspector General, Report No. WR-IV-BIA-
    0001-2009, February 2009: BIA Alaska Regional Indian Reservation Roads Program
    Rife with Mismanagement and Lacking Program Oversight

   U.S. Department of the Interior, Office of Inspector General, Report No. C-RR-BIA-
    0010-2006: Program Assessment Rating Tool, Review of Bureau of Indian Affairs Road
    Maintenance Program

   Expectmore.gov, Program Assessment: Bureau of Indian Affairs — Operation and
    Maintenance of Roads

   Expectmore.gov, Program Assessment: Federal Lands Highway Program



 

 

 

 

 

 

 

 

 

                              




                                              
 
                                                                       Attachment 1



 




                                                                         
            Report Fraud, Waste, Abuse ,
               and Mismanagement  
                  Fraud, waste, and abuse in government
                  concerns everyone: Office of Inspector
                  General staff, Departmental employees,
                    and the general public. We actively
                  solicit allegations of any inefficient and
                    wasteful practices, fraud, and abuse
                  related to Departmental or Insular Area
                 programs and operations. You can report
                      allegations to us in several ways.




                      
        By Mail :            U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 4428 MIB
                             1849 C Street, NW
                             Washington, D.C. 20240
         
                     
        By Phone             24-Hour Toll Free             800-424 -5081 
                             Washington Metro Area         703-487 -5435 
         
                     
        By Fax               703-487-5402
         
                          
        By Internet          www.doioig.gov /hotline
     

 




                                         
 
                                                                                                    Attachment 2

                       United States Department of the Interior                                         ft :           .t
                                        OFFICE OF THE SECRETARY                                           ~·
                                           Washington, DC 20240                                        TAKE PRIDE~
                                                                                                        INAMERICA


                                                  APR - 2 2010
To:               Mary L. Kendall
                  Acting Inspector General

From:             PamelaK. Haze           ~~~ \:\a..~_e_
                  Deputy Assistant Secretary - Budget, Finance, Performance and Acquisition

Subject:          Office of Inspector General Evaluation Report, "Department of the Interior Roads
                  Programs, the Dangers of Decentralization," Report Number C-EV-MOA-0003-
                  2009

Thank you for the opportunity to review the subject evaluation report. This memorandum
provides the Department of the Interior's (DOl) consolidated response and incorporates feedback
from the bureaus that were evaluated. The Department generally concurs with the OIG 's
overarching recommendation to improve management, increase consistency, and better
communicate across the bureaus ' roads programs. The Department will take steps to address this
recommendation within the context of providing centralized coordination, policy and oversight,
while allowing bureaus to continue decentralized execution ofthe program by subject matter
experts. The Department's engagement in the reauthorization of the Transportation Bill will be
led by the Office of Congressional and Legislative Affairs, with budgetary and financial tracking
support provided by the Office of Budget and technical support from the Office of Acquisition
and Property Management. We are hopeful that this will benefit the level of coordination for
Federal Highway programs throughout the Department, thereby benefitting Bureau of Land
Management (BLM), Fish and Wildlife Service (FWS), National Park Service (NPS), Bureau of
Indian Affairs (BIA), and Office oflnsular Affairs. We will also, where appropriate, model best
practices of the NPS that are highlighted in your report.

Several of the bureau responses 1 (Attaclunent I) indicate a concern over the factual elements in
the report from which the recommendation was formed. They state that there were discrepancies
among the road inventories illustrated, confusion in documenting which subset of roads qualify
for available funding mechanisms, and a lack of detail and analysis on the internal bureau
programs focused on managing transportation systems. The emphasis on the jointly managed
Federal Lands Highway (FLH) programs without evaluation of the bureaus ' internal roads
program management, which accounts for a substantial amount of effort by the bureaus, did not
tell the full story of the management of roads by each ofthe bureaus. In addition, it is important
to note that BLM, the Department's largest land owner, and Reclamation do not receive
appreciable funds through the FLH program that would support significant investments in the
types of tracking systems used by NPS.

DOl will take the steps shown in Attachment 2 in accordance with the OIG's recommendation .
We do not believe it is necessary to create a department-level office at DOl; rather, we will

1
 The bureaus informed the Office of Acquisition and Property Man2gement that as of the date of this memo, final
bureau response s were not yet available. The draft responses by bureaus provided to this office are attached. Final
official responses are forthcoming through each Assistant Secretary.
enhance the effectiveness and efficiency of bureau roads programs by leveraging the current
organizational structure, adding teclmical capacity at DOl for program management, and
maintaining bureau coordination through the Senior Asset Management Officers. The Office of
Acquisition and Property Management will seek to create a Transportation Systems Program
Manager position to provide Departmental-level coordination and oversight. This position will
be classified as a professional (civil) engineer with appropriate expertise in transportation system
planning, design, construction, maintenance, and program management at the Federal level. As
we stated above, this position will be augmented with additional funding coordination by the
Office of Budget and support for the legislative reauthorization process from the Office of
Congressional and Legislative Affairs.

Should you have any questions regarding these steps or this response, please contact Debra
Sonderman, Director, Office of Acquisition and Property Management at 202-208-6352.




Attachments



cc:    PAM
       POB
       Bureau Senior Asset Management Officers
       Office of Financial Management
        (Attn: Alex Lampros, Audit Liaison)
                       Attachment 1- Draft Bureau Responses to OIG Report




In Reply Refer To:
9113/1245 (850/830)

Memorandum



To:            Debra E. Sonderman
               Director, Office of Acquisition and Property Management

Through:       Wilma A. Lewis
               Assistant Secretary- Land and Minerals Management

From :         Robert V. Abbey
               Director

Subject :      Office of Inspector General Evaluation Report, Department of the Interior Roads
               Programs: The Dangers of Decentralization (C-EV-MOA-0003-2009)

On February 1, 2010, the Office of Inspector General (OIG) issued its Evaluation Report,
Department of the Interior Roads Programs: The Dangers of Decentralization (C-EV-MOA-0003-
2009) . The report discusses many aspects of the Department of the Interior's (DOl) roads
program and highlights what the OIG determined were deficiencies in DOl's road management
program with respect to inventory inaccuracies, prioritizing and implementing road
maintenance needs, and properly accounting for the funds allocated for roads. The report
noted differences in the funding and operation of the programs within the National Park
Service, U.S. Fish and Wildlife Service, Bureau of Indian Affairs, and the Bureau of Land
Management (BLM).

The OIG's recommendation was to: "[e]stablish a DOl-level office or group able to provide
centralized, consistent, systematic oversight of the different FLH -supported roads programs and
to serve as a focal point for interaction w ith DOT." The BLM concurs with a recommendation to
establish a Department level team or group .

The BLM believes a Department-level team or group consisting of Department and Bureau
representatives could effectively provide the oversight recommended, but does not believe
that establishment of an office is warranted . As the report acknowledges, the BLM is not
authorized to receive funds from the Department of Transportation's Federal Lands Highway
{FLH) program under the Safe, Accountable, Flexible, and Efficient Equity Act: A Legacy for
Users (SAFETEA-LU) unlike other agencies in the Department. The BLM is working with the FLH
program and its sister agencies that receive funds from the program-the Bureau of Indian
Affairs, the National Park Service, and the U.S. Fish and W ildlife Service-to be included in the
future if SAFETEA-LU is reauthorized .

The OIG concluded that the BLM did not have an adequate inventory of its roads and that the
number of miles of roads may be underestimated . The BLM concurs that our road inventory
may be incomplete and, as a result, the number of miles of roads may be underestimated. The
                       Attachment 1- Draft Bureau Responses to OIG Report

BLM maintains an inventory of approximately 50,000 miles of roads that can be traversed by
two-wheel-drive vehicles and an additional 25,000 miles that can be traversed only by four-
wheel drive vehicles . These roads represent primary access routes that are used for a variety of
public and administrative activities. The current roads inventory is the result of efforts that
began about ten years ago utilizing a standardized condition assessment process. This
information is contained and tracked in the Facilities Asset Management System (FAMS}.
Roads are retained in FAMS unless they have been identified for disposal in travel and
transportation management plans at which point they are removed. Once individual plan
decisions are made and travel and transportation systems are determined, the BLM will add
any newly designated roads, primitive routes, trails, and motorized routes to its inventories for
asset management purposes .

Within its current appropriated funding, the BLM updates the road inventory as it completes
travel and transportation management planning efforts. The OIG indicated that Transportation
 Improvement Plans (TIPs} were not being fully utilized by the BLM. However, TIPs are not
utilized by the BLM because the TIPs were designed for use in the Federal Land Highway
program administered by the Department of Transportation, in which the BLM is not
authorized to participate. Instead, the BLM uses its planning process to consider whether to
retain existing roads in the inventory and whether to include existing "linear features" such as
routes, trails, and primitive roads not currently included in the road inventory. Across the 253
million acres of public lands that it manages, the BLM inherited an access network of hundreds-
of-thousands of miles of these linear features that evolved during more than 150 years of use
by the public . Use of this access network has greatly increased over the last two decades with
the population growth in the West and increased resource use activities, including motorized
recreation. This use presents significant challenges for the BLM, including resource protection
issues. The BLM is developing a new Travel and Transportation Planning Manual, which will
help guide how designated travel networks are identified and managed.

The OIG's report states that "[i]n some .. . cases, BLM has decided to forgo any attempts to
maintain roads and to allow them to return to their original states ." The BLM agrees with this
statement. As part of the planning process, the BLM does close or allow primitive routes or
linear features, such as those created by historic use, to return to their natural state. Such
decisions are neither unusual nor inappropriate in certain circumstances. The BLM's
regulations and policies encourage closure in areas where routes are no longer needed or
where resource damage is occurring. The BLM believes that this approach also is consistent
with the Office of Management and Budget's encouragement to dispose of assets that are
redundant or no longer sustainable under the existing funding prescriptions afforded the BLM .

The OIG identified the need for the BLM to improve project prioritization and implementation
processes. In particular, the OIG expressed concern that the BLM state offices do not submit
the 5-year TIPs and that the BLM's implementation plans were not as detailed as those
observed with NPS and FWS. As explained earlier, the BLM is not required to utilize TIPs in the
same way that the other FLH Program bureaus, such as NPS and FWS are . There may be some
instances where a BLM Field or State Office provides input or suggests projects for inclusion
into metropolitan or State TIPs, but there is no requirement for BLM States to produce separate
5-year TIPs . The BLM instead uses travel and transportation management plans to develop its
roads inventory. Second, with respect to prioritization and implementation, the BLM has a
                       Attachment 1- Draft Bureau Responses to OIG Report

rigorous rating and ranking process for all of its constructed assets, which include buildings,
dams, bridges, trails, recreation sites, roads, and administrative sites. Roads that have
identified Deferred Maintenance needs are subm itted through the BLM's Deferred
Maintenance Five-Year Planning process for scoring, ranking, and funding. This Department-
wide process is currently weighted towards health and safety needs. Through this process, the
BLM's road improvement needs are ranked against the needs of other of the BLM's constructed
assets . This process ensures that objective criteria are used in distributing the BLM's limited
deferred maintenance funding. Deferred maintenance funding is distributed through the
project specific rating and ranking process described above, but annual maintenance funding is
also used for road maintenance. Annual maintenance funding is distributed to the BLM state
offices, and subsequently to the field offices, based on estimated maintenance needs. Field
offices prioritize the ir annual maintenance activities based on their own assessment of
maintenance needs for all of the constructed assets within their jurisdiction .

The OIG also identified the need for the BLM to provide better accountability over roads
funding. In add ition, the OIG states that the BLM's new Financial Business Management System
(FBMS) does not assign unique project codes to roads projects. The BLM disagrees with these
assessments . The FBMS retains the capability to assign unique project codes, and they are
referred to as a " work breakdown structure." During 2009, when the OIG report was being
prepared, the BLM was in a transition year from its old accounting system to the new FBMS,
and some uncertainty existed about its functionality. The work breakdown structure is an
accounting mechanism to track individual projects. While the BLM does not have a budgetary
line item for road maintenance, road maintenance is funded through the annual maintenance
and deferred maintenance line items. The BLM's actual expenditures for road, bridge, and trail
maintenance are carefully tracked in the FBMS using seven distinct program elements. The
performance in the maintenance program is also tracked . At the beginning of a fiscal year, field
offices provide state offices with target workload measures that are tied to the funding
program elements. Actual accomplishments are reviewed by the BLM state offices and the
Washington Office. At the end of the fiscal year the Washington Office reviews actual
accomplishments and adjusts future funding allocations based on these accomplishments. The
Department intends to complete the integration of the FBMS with the FAMS in 2012. This will
more readily connect the BLM ' s roads inventory with its financial systems.

The OIG indicated that interviews with BLM Washington Office officials revealed that, in some
instances, field offices are not using roads funding for designated purposes and that BLM State
offices do little or no follow-up. The information in the OIG report is not specific enough for
BLM to further investigate these allegations . However, the BLM uses its budget planning
process to provide broad direction and expected program accomplishments and targets.
Among those workload measures are targets for road, building, and other maintenance. In
some instances, a field office or state office may only use a portion of the funding that was
targeted in the Annual Work Plan for roads, and the rema ining money may be utilized on other
types of maintenance projects . These funds are all being used properly in support of the BLM's
annual and deferred maintenance programs, and these funds are being spent for authorized
purposes . BLM State and Washington offices conduct quarterly reviews of budget and
performance to ensure that offices remain on track for accomplishing BLM goals. If there were
miscoding or improper use of funds, this would be identified through the quarterly review
process.
                       Attachment 1- Draft Bureau Responses to OIG Report



The OIG reached the conclusion that without a formal process to track funds and check for
improper use, the risk of fraudulent use of public money is and will remain unacceptably high.
The BLM respectfully disagrees with this assessment. The FBMS, in addition to providing the
tracking capability described above, also provides controls on all expenditures of funds. The
FBMS internalizes many critical controls, such as separating the roles of requisitioner,
requisition approval, budget approval , and contract approval. The BLM believes these system
and similar controls, and the clear ability to track funds, minimizes the risk of waste and fraud
in the roads program .

If you have any questions about this response, please contact Corey Grant, Chief, Division of
Business Resources, at 202-912-7040, or LaVanna Stevenson-Harris, BLM Audit Liaison Officer,
at 202-912-7077.




cc:



ASLM (2) (6600 MIB)
W0-850 (LS)
W0-250 (LS)
W0-200 (5644 MIB)
W0-800 (5624 MIB)
W0-830 Official Copy (1000 LS)
W0-830 rf/hold (1000 LS)
lls:3/04/2010:DOC.ID-revised_OIG Roads Report Response_C-EV-MOA-0003-2009
                        Attachment 1- Draft Bureau Responses to OIG Report

In Reply Refer To :
FWS/ ANRS/ITM/044268

To:         Assistant Secretary, Fish and Wildlife and Parks

From:       Director

Subject:   Inspector General Evaluation Repoti C-EV -MOA-0003-2009
           Department of the Interior Roads Program, The Dangers of Decentralization

The Office of the Inspector General (OIG) recently released the subject report by way of a
February I , 20 I 0, memorandum that requested a written response. The OIG focused their
evaluation on four questions: I) Have the bureaus identified their roads needs?, 2) Do the
bureaus have mechanisms in place for prioritizing their needs?, 3) Have the bureaus developed
implementation plans for roads projects?, and 4) Do the bureaus have systems in place to account
for funds expended toward roads projects? Based on findings identified in the report, the OIG
recommends establishment of a centralized DOl-level office to oversee the roads program.

We have reviewed the report and have serious concerns with both the report itself, and the
conclusion that a DOl-level roads office would be beneficial. Our concerns are described below.

Concerns on the factual elements of the report: The report as currently written is unclear as to
which roads and which roads programs are being evaluated. It does not clearly distinguish
between two major efforts. The majority of the narrative in the report focuses on public use road
programs carried out in partnership with the Federal Highway Administration's (FHWA) Federal
Lands Highway (FLH) program; however, there is an inte1mingling of references in the
document to roads management within the FLH program and management for administrative
roads. Both the FLH and the management of administrative roads are large efforts.

Potential confusion between the two roads programs is illustrated by the following. Pages 2 and
3 of the report focus on roads overall. The chart on page 3 lists 4,900 miles of roads for the Fish
and Wildlife Service (Service); these are the FLH roads and an additional 7,800 miles of
administrative roads are managed by the Service and should be included in this chart. Deferred
maintenance amounts on page 3 display deferred maintenance for all roads combined. Pages 4
and 5 then di scuss FLH eligible roads almost exclusively. There is a two sentence reference on
page 5 related to administrative roads, referencing a "second source" offunding. The inventory
discussion on pages 5 and 6 refers to roads overall. That is followed by a discussion on pages 6
and 7 that focuses almost exclusively on the FLH eligible roads, except for inclusion of BLM
roads which are not part of the Federal Lands Highway program.

It is recommended that the report be revised to clarify which road program is being referenced in
various sections of the report.

Concerns on the Recommendation to Establish a DOl-level Roads Program Office: We are
concerned that the cu!Tent excellent levels of communication between FHW A and the Service
may be negatively affected by creating a new DOl Roads office or group. Our eight Regions
work in close coordination with the three FHWA FLH Divisions to implement our program in a
decentralized manner, with direct oversight by the Fish and Wildlife Service headquarters staff
and FHWA ' s Federal Lands headquarters. The conduct of the program, in our experience, works
well now and new levels of bureaucracy may negatively impact its effectiveness and efficiency.
                      Attachment 1- Draft Bureau Responses to OIG Report



Rather than a new Roads office, the Department should consider how current Department groups
related to asset management and finance already contribute to oversight of road programs.
Including a clearer focus on roads programs within these groups would in our experience provide
greater benefit to improving implementation of road programs than would creation of a new
Departmental office with many redundant and duplicative components.

cc: 3238/CCU, 3251 /ANRS , 670/ANRS-DNRS, 570 ITM, 634 DVSC, 222 PDM, 634 Ken
Grannemann, 634 Steve Suder

FWS/KGrannemann:md:3 /9/ 10/703-358-2046/S/CC/2010/044268
                             Attachment 1- Draft Bureau Responses to OIG Report

To :                Assistant Secretary, Fish and Wildlife and Parks

From :              Director, National Park Service

Subject :           Inspector General Evaluation Report C-EV-MOA-0003-2009

                    Department of the Interior Roads Program, The Dangers of Decentralization

The Office of the Inspector General (OIG) has just released the subject report which was initiated at the
request of Congress . The OIG focused their evaluation on four questions :

            •   Have the bureaus identified their roads needs?
            •   Do the bureaus have mechanisms in place for prioritizing their needs?
            •   Have the bureaus developed implementation plans for roads projects?
            •   Do the bureaus have systems in place to account for funds expended toward roads projects?


The OIG reviewed each bureau ' s road program for adequacy using each of the questions. The National
Park Service was routinely cited for having an outstanding program as evidenced by the OIG
observations :

            •   " NPS ... (has a) well established, regularly updated, accurate road inventory and condition
                database to help identify needs."
            •   " NPS ... (has) clearly defined priorities and processes in place to identify their needs."
            •   " We found that ... NPS ... (has a) clearly articulated implementation plans and processes."
            •   " ... NPS .. .manage(s) roads funds quite well ... "
            •   " ... NPS was the only bureau that used an automated road analyzer for inventory and
                condition assessment ..."


The Fish and Wildlife Service (FWS) received similar high marks for most of their program. On the other
hand, significant problems were found with both the Bureau of Indian Affairs (BIA) and Bureau of Land
Management (BLM) roads programs . As a result, the OIG concluded that the program deficiencies were
not the result of bureau poor performance, but rather the Department's decentralization of the roads
program . Their proposed solution is to " Establish a DOl-level office or group able to provide centralized,
consistent, systematic oversight ... "

We strongly disagree with this proposed solution as it follows the same misguided approach that led to
the formation of the Appraisal Services Directorate . In that case, the identification of significant, yet
localized problems in the BLM's land acquisition program led to the consolidation of appraisal programs
for all bureaus. The resulting organization has proven top heavy, cumbersome and non-responsive to
user needs . We believe the creation of a department-wide office to oversee the roads program would
result in a similar bloated bureaucracy that unnecessarily duplicates functions already successfully
working in the NPS and FWS . Additionally it would seriously impair the strong relationship developed
by these bureaus working with their counterparts at the Department of Transportation .

Instead, we believe that underperforming organizations should be directed to remedy their programs to
eliminate the problems identified by the OIG . A logical step in addressing BIA and BLM shortfalls,
without obstructing the progress made by FWS and NPS road programs, would be to establish an
Interagency Road Technical Peer Group (IRTPG) that would include the bureaus and representative from
the Federal Lands Highway Program and the Federal Highway Administration . In contrast to a DOl-level
office that we believe would cause inefficiencies, delays and add an additional layer of red tape, the
IRTPG would be a self-directed work group that meets routinely to share day-to-day business practices
                        Attachment 1- Draft Bureau Responses to OIG Report

in administrative policies, guidance, financial tracking, project and program management, goals,
performance measures, innovations and best practices. An activity of the IRTPG could be to establish a
strong external peer review and monitoring program that would help bureaus to understand and
identify shortcomings, deficiencies and address them in a proactive, collaborative, practical and
constructive manner.

The NPS stands ready to help the other bureaus in developing such a program .
                Attachment 2- DOl Planned Steps to Address Recommendations



Planned      Description of Planned Steps                                     Responsible
Completion                                                                    Office
Date
Ql 'FY 11    Create, advertise, and fill a new senior program manager         PAM
             position (GS-081 0-14115) within the Office of Acquisition and
             Property Management, Facilities & Property Management that
             will 1) Develop policies and provide centralized programmatic
             oversight to the bureaus in concert with the Asset Management
             Team and Partnership, and 2) Provide technical support to and
             coordinate with the Office of Budget and the Office of
             Congressional and Legislative Affairs through the
             reauthorization of the Transportation Bill.
Q2 'FY 11    Engage the Asset Management Team and Partnership                 PAM/POB/
             (AMT/AMP) in strategic discussion on improving DOl Roads         AMT/AMP
             Program and communication with the Depat1ment of
             Transportation (DOT). Develop recommendations for
             improving accuracy of inventory, improving programmatic
             consistency, and leveraging best management practices.
Q2 ' FY 12   Complete implementation of AMT/ AMP recommendations for          Bureaus/PAM
             improving management, increasing consistency, and better
             communication within the DOl Roads Program.
Q3 'FY 12    Leverage existing inventory and road management systems          Bureaus/PAM
             through a unified Facility Maintenance Management System
             (FMMS) and the appropriate interface with the Financial and
             Business Management System (FBMS).
